App. 1
[LOGO]
PACIFIC PALISADES COMMUNITY COUNCIL
Post Office Box 1131,
Pacific Palisades, California 90272
info@pacpalicc.org
pacpalicc.org
September 16, 2019
Michelle Bisnoff, Chair, Brentwood Community Council (via email: info@brentwoodcommunitycouncil.org)
Re: PPCC Support for Brentwood Community Council
(BCC) Amicus Brief in City of Boise v. Martin, et
al. (Petition for Writ of Certiorari in the Supreme
Court of the United States)
Dear Ms. Bisnoff:
Pacific Palisades Community Council (PPCC) has been
the most broad-based organization and voice of the
Palisades community since 1973. As you know, Pacific
Palisades is a community of about 25,000 bordered by
the Pacific Ocean and the Santa Monica Mountains
and located to the west of the community of Brentwood
within the City of Los Angeles. Brentwood and Pacific
Palisades are in effect sister communities which share
many of the same concerns and goals.
The PPCC Executive Committee has reviewed the
Amicus Brief to be filed by BCC (Amicus Brief ) as well
as the Petition for Writ of Certiorari filed by the City
of Boise in the above referenced case (Petition). On
behalf of PPCC, the Executive Committee expresses

App. 2
PPCC’s strong support for the Amicus Brief.1 Specifically, we agree with the argument that review by the
Supreme Court of the United States is necessary to
provide clarity in light of apparent conflicts with
United States Supreme Court precedent and federal
appellate and state supreme court opinions, as noted
in the 6-judge dissent to the opinion of the Ninth Circuit in the underlying case (Martin v. City of Boise (9th
Cir.), ___ 3rd WL 143404, April 1, 2019).
It is a matter of public record that a severe homelessness crisis exists in Los Angeles, with burgeoning overnight camping and sleeping on sidewalks and other
public property throughout the City and attendant
trash, drugs, vermin and disease. We are familiar with
the deplorable conditions in Brentwood and elsewhere
as described in the Amicus Brief and the Petition – conditions that have been the subject of national attention
and clearly present major public health and safety
challenges. As noted by BCC, regulation of such activity may be an effective tool to encourage service-resistant homeless individuals to accept services and
housing (which Los Angeles is seriously addressing
through voter-approved measures to facilitate construction of supportive housing).
The Palisades community has also been severely impacted by homelessness. Homeless individuals sleep
on our sidewalks and camp in our ocean bluffs and
park areas in the midst of residential neighborhoods
(all of which are designated High Fire Hazard Severity
1

Acting pursuant to PPCC’s Bylaws, Art. V, Sec. 3(B).

App. 3
Zones), resulting in dangerous fire conditions and
other threats to public health and safety. While our respected local volunteer organization – the Pacific Palisades Task Force on Homelessness – has had some
success, due to our unique conditions, in reducing hazardous encampments, we remain concerned with ongoing impacts on public health and safety should there
be a future determination that our bluffs and park areas (public property) are not subject to regulation of
overnight camping under the Ninth Circuit decision in
Martin v. City of Boise, supra. For all of these reasons,
PPCC supports the BCC Amicus Brief and respectfully
urges review by the United States Supreme Court of
the underlying Ninth Circuit decision.
Sincerely,
/s/ Christina Spitz
Christina Spitz, Secretary, for George Wolfberg, Chair,
Pacific Palisades Community Council

App. 4
BRENTWOOD HOMEOWNERS ASSOCIATION
PO Box 49427 □ Los Angeles, California 90049 □
(424) BHA-8765 □ info@brentwoodhomeowners.org
In The Supreme Court of the United States
In Support of the Petition For A Writ Of Certiorari in
the Matter of City of Boise, Petitioner, v. Robert Martin,
et al, Respondents
The Brentwood Homeowners Association (“BHA”) represents a community of approximately 3,200 residents
in Los Angeles, California, that is experiencing a growing population of homeless persons whose behavior
threatens the health and safety of those residents. Our
City, County, and State legislative bodies and enforcement agencies are hamstrung in dealing with the
threats posed to health and safety by the decision that
is the subject of petitioner’s writ of certiorari. Local jurisdictions throughout the country are similarly helpless to deal with these threats. Left uncontrolled, it is
not an exaggeration to predict the possibility of a national pandemic putting at risk the health and lives of
everyone. Public spaces, such as sidewalks, in our BHA
community are frequently made impassable by homeless encampments of a dozen or more tents; public
spaces are covered with trash, excrement and urine;
spoiled food, hypodermic needles, and condoms litter
the public spaces; the City and County of Los Angeles
are simply overwhelmed by the speed and scale of the
homeless population growth. The BHA supports the
petitioner’s writ of certiorari in order to afford the Supreme Court the opportunity to reverse or limit the
Ninth Circuit decision because, otherwise, we are

App. 5
advised our City, County, and State are without the
Constitutional authority to enact reasonable limitations on homeless encampments that adversely impact
the health, safety, and welfare of both the homeless
persons in our community as well as the health, safety,
and welfare of the residents of our community. The issue is extremely important to every urban community
in the entire country that is experiencing an unprecedented growth in the number of homeless persons.
Housing, temporary or permanent, cannot be built fast
enough regardless of funding. If the decision of the
Ninth Circuit is left standing, regulations of cities,
counties, and states designed to protect the health and
safety of their communities will be called into question;
law enforcement efforts to protect the health and
safety of communities will be hindered; and the health
and safety of millions of persons will be subjected to
undue risk.
Respectfully submitted,
/s/ Kathleen Flanagan
Kathleen Flanagan, President

